                     U.S. Department of Agriculture
                        Office of Inspector General




Assessment of the U.S. Department of
  Agriculture’s Disaster Response
            Capabilities


                 .




                                   Report 42099-4-HQ
                                         August 2010
                       UNITED STATES DEPARTMENT OF AGRICULTURE

                                  OFFICE OF INSPECTOR GENERAL


                                       Washington D.C. 20250



DATE:         August 30, 2010


REPLY TO
ATTN OF:      42099-4-HQ

TO:           Todd Repass
              Director
              Office of Homeland Security

ATTN:         Phyllis Holmes
              Audit Liaison Officer
              Departmental Management

FROM:         Gil H. Harden /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Assessment of the U.S. Department of Agriculture’s Disaster Response
              Capabilities (Assessment Report 42099-4-HQ)


This report presents the results of our assessment of the U.S. Department of Agriculture’s
(USDA) disaster response capabilities. We performed our assessment as part of a pilot
program instituted by the Department of Homeland Security (DHS) Inspector General (IG).
The DHS IG provided 14 “researchable questions” related to DHS’ National Response
Framework Emergency Support Function (ESF) 11 “Agriculture and Natural Resources” to
be answered during our review. Our objective was to obtain information to answer these
questions through interviews with USDA personnel and review of documentation provided
by the Department and its agencies.

We concluded that USDA and its agencies coordinated activities and performed primary and
support duties as outlined in ESF 11. Accordingly, we are not making any recommendations
at this time.

We appreciate the courtesies and cooperation extended to us during the review.
Table of Contents

Executive Summary ................................................................................... 1 
Background and Objectives...................................................................... 2 
  Background ............................................................................................. 2 
  Objectives ................................................................................................ 3 
Scope and Methodology............................................................................ 4 
Abbreviations ............................................................................................. 5 
Exhibit A: Department of Homeland Security (DHS) Inspector General
(IG) Researchable Questions and U.S. Department of Agriculture
(USDA) Office of Inspector General (OIG) Position ................................ 6 
Assessment of the U.S. Department of Agriculture Disaster Response
Capabilities (Assessment Report 42099-4-HQ)

Executive Summary
According to the draft of An IG’s Guide for Assessing Federal Response Capabilities: 1

           The National Response Framework (NRF) was released by the Department of Homeland
           Security (DHS) in January 2008 to guide how the nation conducts all hazards response.
           It is built upon a scalable, flexible, and adaptable coordinating structure to align key roles
           and responsibilities across the nation, linking all levels of Government, nongovernmental
           organizations, and the private sector. It includes specific authorities and best practices
           for managing incidents that range from the serious but purely local, to large scale terrorist
           attacks or catastrophic disasters. It underscores that Government executives, private
           sector and nongovernmental organization leaders, and emergency management
           practitioners across the nation must understand domestic incident response roles,
           responsibilities, and relationships.

           The Emergency Support Function (ESF) annexes contained in the NRF provide the
           structure for coordinating Federal interagency support in response to an incident. They
           represent 15 functional groupings that are frequently used to provide Federal support to
           states and federal-to-federal support, both for declared disasters and emergencies.

The NRF established the U.S. Department of Agriculture (USDA) as the coordinator as well as a
Primary and Support agency for ESF 11, “Agriculture and Natural Resources.” 2 As such, USDA
is charged with management oversight for ESF 11. USDA has ongoing responsibilities
throughout the preparedness, response, and recovery phases of incident management.

We performed our assessment as part of a pilot program instituted by the DHS Office of
Inspector General (OIG). The DHS OIG provided 14 “researchable questions” to be answered
during our review. Our objective was to obtain information to answer these questions through
interviews with USDA personnel responsible for ESF 11 and analysis of documentation provided
by the Department and its agencies. Our review was for the limited purpose described above and
would not necessarily identify all deficiencies in internal controls.

We found that USDA appropriately coordinated activities under ESF 11. Furthermore, we noted
that impacted USDA agencies (Animal and Plant Health Inspection Service, Food and Nutrition
Service, and Food and Safety Inspection Service) properly functioned in assigned roles of
coordinating, Primary and Support agencies in accordance with NRF guidelines.




1
 Draft “An IG’s Guide for Assessing Federal Response Capabilities” dated May 2010, issued by the Emergency
Management Work Group of the Council of the Inspectors General on Integrity and Efficiency.
2
    Roles assigned to the coordinator do not overlap with the roles of primary or support agencies.


       Report 42099-4-HQ                                                                                1
Background and Objectives

Background
According to the draft of An IG’s Guide for Assessing Federal Response Capabilities (see
footnote 1):

       The National Response Framework (NRF) was released by the Department of Homeland
       Security (DHS) in January 2008 to guide how the nation conducts all hazards response.

       The Emergency Support Function (ESF) annexes contained in the NRF provide the
       structure for coordinating Federal interagency support in response to an incident. They
       represent 15 functional groupings that are frequently used to provide Federal support to
       states and federal-to-federal support, both for declared disasters and emergencies.

       Each ESF is comprised of a coordinator, along with Primary and Support agencies. For
       ESF 11, the U.S. Department of Agriculture (USDA) is the coordinator as well as a
       Primary and Support agency. The coordinator for each ESF is charged with management
       oversight for that particular ESF. The coordinator has ongoing responsibilities
       throughout the preparedness, response, and recovery phases of incident management.

       Responsibilities of the ESF Coordinator include:

          •   Coordinating before, during, and after an incident, including pre-incident planning
              and coordination;

          •   maintaining ongoing contact with ESF Primary and Support agencies;

          •   conducting periodic ESF meetings and conference calls;

          •   coordinating efforts with corresponding private sector organizations; and

          •   coordinating ESF activities relating to catastrophic incident planning and critical
              infrastructure preparedness, as appropriate.

       An ESF primary agency is a Federal agency with significant authorities, roles, resources,
       or capabilities for a particular function within an ESF. When an ESF is activated in
       response to an incident, responsibilities of the primary agency include:

          •   Supporting the ESF coordinator and coordinating closely with the other primary
              and support agencies;

          •   orchestrating Federal support within their functional area for an affected State;

          •   providing staff for the operations functions at fixed and field facilities;

          •   notifying and requesting assistance from support agencies; and


   Report 42099-4-HQ                                                                                2
           •   Managing mission assignments and coordinating with support agencies, as well as
               appropriate State officials, operations centers, and agencies.

       A support agency is an entity that has specific capabilities or resources that support the
       Primary Agency in executing the ESF mission. When an ESF is activated, responsibilities
       of the support agency include:

           •   Conducting operations, when requested by DHS or designated ESF primary
               agency, consistent with their own authority and resources, except as directed
               otherwise pursuant to sections 402, 403, and 502 of the Stafford Act, which
               authorizes the President to provide financial and other assistance to State and
               local governments following Presidential emergency or major disaster
               declarations;

           •   participating in planning for short and long-term incident management and
               recovery operations and the development of supporting operational plans; and

           •   assisting in the conduct of situational assessments.

NRF annex for ESF 11 describes five primary functions: providing nutrition assistance,
responding to animal and plant diseases and pests, ensuring the safety and security of the
commercial food supply, protecting natural and cultural resources and historic properties, and
providing for the safety and well-being of household pets.

Objectives
We performed our assessment as part of a pilot program instituted by the DHS’ Inspector
General (IG). The DHS IG provided 14 “researchable questions” to be answered during our
review. Our objective was to obtain information to answer these questions through interviews
with USDA personnel responsible for ESF 11 and analysis of documentation provided by the
Department and its agencies.




   Report 42099-4-HQ                                                                             3
Scope and Methodology

The scope of our review was Departmentwide and covered USDA ESF 11 activities from
January 2009 through March 2010. We followed applicable Government Auditing Standards in
performing this assessment. We believe the evidence obtained provides a reasonable basis for
our conclusions based on our objectives. Fieldwork for this assessment was performed in March
and April 2010. We conducted our assessment at the Animal Plant Health Inspection Service,
Food Safety Inspection Service, and Food and Nutrition Service located in Washington D.C. To
accomplish our audit objectives, we interviewed key Departmental and agency personnel, and
evaluated documentation provided by the Department and its agencies supporting activities
performed to carry out its responsibilities under ESF 11.




   Report 42099-4-HQ                                                                        4
Abbreviations
APHIS ......................... Animal Plant Health Inspection Service
COOP .......................... Continuity of Operations Plan
DHS............................. Department of Homeland Security
ESF.............................. Emergency Support Function
FFIS............................. Foundation Financial Information System
FEMA ......................... Federal Emergency Management Agency
FNS ............................. Food and Nutrition Service
FSIS............................. Food Safety Inspection Service
GPS ............................. Global Positioning System
ICS .............................. Incident Command System
IG ................................ Inspector General
JFO .............................. Joint Field Office
NRCC.......................... National Response Coordination Center
NRF ............................. National Response Framework
OIG ............................. Office of Inspector General
RRCC .......................... Regional Response Coordination Center
TTX ............................. table top exercise
USDA.......................... U.S. Department of Agriculture




    Report 42099-4-HQ                                                       5
Exhibit A: Department of Homeland Security (DHS) Inspector General
(IG) Researchable Questions and U.S. Department of Agriculture
(USDA) Office of Inspector General (OIG) Position
(Researchable Questions are in bold, OIG responses are italicized)

Questions 1 through 3 pertain to Emergency Support Function (ESF) Coordinators. The
Animal Plant Health Inspection Service (APHIS) functions as USDA’s Coordinating and
Primary Agency.

Researchable Question 1:

To what extent and in what manner did USDA coordinate with other Primary and Support
agencies: (a) before an incident (including pre-incident planning), (b) during an incident,
and (c) after an incident?

       We found that USDA coordinated a wide variety of ESF 11 activities with the Department
       of Interior and the support agencies (a) before an incident (including pre-incident
       planning), (b) during an incident, and (c) after an incident. Before incidents occurred,
       USDA was involved in coordinating pre-incident activities such as planning, exercises,
       training, workgroups, and periodic conference calls. During an incident, ESF 11 was
       activated by the Federal Emergency Management Agency (FEMA) and USDA served as
       the sole ESF coordinator for ESF 11 activities, increasing the frequency of
       communications with other ESF 11 agencies, including daily conference calls. After an
       incident, after-action reviews were conducted, and an after-action report including
       lessons learned was produced.

Researchable Question 2:

To what extent did USDA coordinate with private sector organizations to identify and
maximize use of private sector resources in response to a threat or incident?

       We found that USDA coordinated with a variety of private sector organizations to
       identify and maximize use of private sector resources in response to a threat or incident.
       Documentation showed USDA’s direct involvement with a variety of private sector
       organizations in exercises, training events, conferences, workgroups, and periodic
       conference calls.

Researchable Question 3:

To what extent did USDA coordinate ESF activities for catastrophic incident planning (e.g.,
National Planning Scenarios) and critical infrastructure preparedness, as appropriate?

       We found that USDA coordinated a variety of ESF 11 activities in developing various
       plans, regularly attending meetings and performing exercises as part of planning for
       catastrophic incidents. USDA also collaborated with FEMA on various plans and
       exercises regarding catastrophic incidents. In addition, for the agriculture-related


   Report 42099-4-HQ                                                                                6
       National Planning Scenarios for catastrophic incidents, USDA provided documentation
       showing it was directly involved in plan development, exercises, training, and
       workgroups. Based on our review, we concluded USDA has coordinated a wide variety of
       ESF activities for catastrophic incident planning (e.g. National Planning Scenarios) and
       critical infrastructure preparedness.

Researchable Questions 4 through 9 pertain to ESF Primary Agencies.

Researchable Question 4:

To what extent and in what manner did USDA coordinate with the ESF coordinator,
Primary and Support agencies, State officials, operations centers, State agencies, and the
private sector?

       We found that USDA continuously coordinated with State officials, operations centers,
       and State Agencies in a variety of ways. USDA’s coordination ranged from observation
       to full participation in meetings, training, participation on advisory and planning groups,
       drafting language for mission assignments, as well as full and partial participation in
       State exercises (including funding and collaborating exercises in select states).

Researchable Question 5:

To what extent was USDA prepared to provide trained staff for operations functions, such
as supporting interagency emergency response and support teams, at fixed and field
facilities?

       We found that USDA was prepared to provide trained staff for operations functions to the
       extent necessary in relationship to ESF 11, at both fixed and field facilities.

       Required training was completed by support staff. Additionally, this trained staff was
       divided into teams, and served on a rotational basis to ensure support staff was always
       available when needed.

Researchable Question 6:

To what extent and in what manner did USDA conduct situational and periodic readiness
assessments? How often have they been coordinated, and how have findings been applied?

       We found that USDA conducted situational and periodic readiness assessments through
       meetings, table top exercises (TTX), full scale exercises, and activations. The amount of
       assessments varied; however, from January 2009 through March 2010, 21 assessments
       were completed.

       Findings from completed assessments were documented in after-action reports. Findings
       have resulted in standardized communication through daily reports, standardized ESF 11
       Desk Officer Training, and revised roles and responsibilities of National Response
       Coordination Center (NRCC) Team Members. These findings were applied to procedures
       for carrying out ESF 11 activities as well as future assessments.

   Report 42099-4-HQ                                                                               7
Researchable Question 7:

To what extent had USDA identified new equipment or capabilities required to prevent or
respond to new or emerging threats and hazards, or to improve the ability to address
existing threats?

      We found that USDA was staffed and equipped to functionally respond to incidents. ESF
      11 agencies used exercise reports and after-action reports for incidents to access the
      capabilities for strengths and areas needing improvement. Meetings were held to share
      information with support agencies, States, and non-governmental organizations. We
      concluded that USDA continually assessed their new equipment needs and capacities by
      conducting exercises, preparing after-action reports, and sharing information with other
      organizations.

Researchable Question 8:

To what extent had USDA executed contracts and procured goods and services needed to
fulfill its ESF role?

      We found that USDA’s primary role was to provide technical assistance; not to execute
      contracts to procure goods and services. We noted two isolated cases where USDA
      executed contracts during our review. As a result of 2008 flooding that occurred in Iowa,
      a contract for carcass disposal was executed in response to a FEMA mission assignment.
      USDA also contracted for training to prepare employees for response activities. USDA
      was in the process of executing a contract for desk officer training. We concluded that
      USDA’s response activities rarely required execution of contracts and procurement of
      goods and services.
Researchable Question 9:

To what extent was USDA prepared to manage mission assignments and ensure financial
and property accountability for ESF activities?

      We found that USDA was prepared to manage mission assignments and ensure financial
      and property accountability for ESF 11 activities. APHIS staff included a full time
      employee to manage mission assignments. Responsibilities included review of accounting
      codes, tracking the costs, reviewing and submitting information to FEMA, and entering
      information into the Department’s Foundation Financial Information System (FFIS). To
      ensure that the total costs did not exceed the limits set for the particular mission
      assignment, each agency was responsible for submitting ESF 11 costs to APHIS so that
      the total costs for the disaster response could be tracked and subsequently entered in to
      FFIS. FSIS also maintained procedures to ensure financial accountability.

      APHIS had several full-time employees that were trained, positioned, and functionally
      equipped to manage mission assignments and ensure financial accountability. APHIS
      maintained a spreadsheet listing contacts to initiate responses. When a disaster occurred,
      APHIS had six dispatchers that used the Resource Ordering and Status System to deploy
      staff. FSIS had procedures in place setting forth the roles and responsibilities for

   Report 42099-4-HQ                                                                          8
      managing mission assignments. The Food and Nutrition Services’ (FNS) normal
      operations included providing food in the event of a disaster; therefore, it did not have
      separate regulations for ESF 11 functions. For the APHIS full-time ESF 11 employees,
      the property needed for disaster response activities was assigned to the employees. For
      non-ESF 11 employees, property needed for ESF 11 response was the responsibility of
      each agency and was accounted for as part of their normal operations.

Researchable Question 10 pertains to Coordinating and Primary Departments and
Agencies.

Researchable Question 10:

To what extent did USDA plan for short and long-term incident management and recovery
operations?

      We found that USDA had adequately planned for short and long-term incident
      management and recovery operations. The ESF 11 coordinators completed Incident
      Command System (ICS) training and various DHS training courses. The USDA ESF 11
      agencies participated in developing various response plans, meetings, and exercises.
      They participated in National Alliance of State Animal and Agricultural Emergency
      Programs working group meetings. Additionally, USDA was in the process of executing a
      contract to conduct a Desk Officer Training Academy in June 2010.

Researchable Questions 11-14 pertain to Support Agencies (FSIS and FNS functioned
primarily as support agencies for USDA).

Researchable Question 11:

To what extent had USDA’s support agencies identified trained personnel, equipment, or
other resources support to conduct operations when requested by DHS or the designated
ESF primary agency?

      We found that FNS had trained staff to support ESF 11 at FEMA’s NRCC and over 100
      staff collectively across the seven FNS regions to support Regional Response
      Coordination Centers (RRCC) and Joint Field Offices (JFO), as needed. Staff
      participated in annual regional and national training conferences as well as on-line
      training to assure preparedness for activation and response.

      We selected a nonstatistical sample of FNS employees and requested training certificates
      for those individuals. FNS provided documentation showing completion of the required
      training courses for the selected individuals.
      In addition, we found that FNS also acquired Global Positioning Systems (GPS) for its
      personnel that assisted in areas where severe structural damage prevents them from
      getting to the places in need during a disaster. FNS realized the need for GPS after
      Hurricane Katrina in 2005, when most of the traffic signs and landmarks were destroyed.




   Report 42099-4-HQ                                                                              9
      FSIS indicated that it provided personnel to staff the NRCC, RRCC, and JFO. FSIS
      personnel chosen to assist the NRCC have either completed or are in the process of
      completing several of the suggested FEMA courses including ICS 100, 200, 300, and
      desk officer training. The USDA and FSIS ESF 11 Coordinators track this training as it
      is completed. FSIS personnel assisting at the RRCCs and JFOs receive desk officer
      training as it becomes available.

      FSIS maintained a list of training completed for dedicated ESF 11 personnel. This list
      included FNS and FSIS employees trained to assist the NRCCs, RRCCs, or JFOs. We
      selected a nonstatistical sample of FSIS employees and requested training certificates for
      those individuals. FSIS provided documentation showing completion of the required
      training courses for the selected individuals. FSIS maintained satellite phones, GETS
      cards, blackberries, and recorders for use when responding to emergencies. This
      provided FSIS the ability to communicate during significant incidents disrupting normal
      communications.
Researchable Question 12:

To what extent had USDA support agencies participated in planning for short and long-
term incident management and recovery operations and the development of supporting
operational plans?

      We found that FSIS had a Continuity of Operations Plan (COOP), an All Hazards
      Response Plan, Pandemic Plan, and Avian Influenza Plan that were provided to USDA.
      Furthermore, FSIS provided input to FEMA on the Biological CONPLAN and Hurricane
      Planning and USDA on the Radiological Plan, COOP, and National Disaster Recovery
      Framework. FSIS participated in the APHIS National and Regional Meetings and ESF
      11 partner meetings.

      FNS worked in coordination with Federal, State, and nongovernmental partners to
      manage incidents through meetings and conference calls on a daily basis during
      responses and periodically during the transition to recovery. FNS’ role in recovery was
      more limited as it involved referring and transitioning disaster survivors to the regular
      FNS nutrition assistance programs. FNS worked closely with State and local partners on
      these matters.
Researchable Question 13:

To what extent did USDA support agencies assist in the conduct of situational assessments
and provide input to periodic readiness assessments? How often have they been
coordinated and how have findings been applied?

      We found that FNS annually participated in the National Level Exercise, the National
      Hurricane Exercise and an internal FNS exercise to assess readiness. All exercises
      included an after-action assessment to evaluate response and recommend improvements.
      FNS also assessed its disaster response to recent incidents and developed a “lessons
      learned” report that is used internally for planning and was shared with State partners
      as a technical assistance.


   Report 42099-4-HQ                                                                         10
      FSIS conducted internal exercises to test internal procedures in responding to significant
      incidents. FSIS personnel participated in external exercises designed by other agencies
      and departments and hosted exercises involving external participants from State, local,
      tribal governments, industry, and consumer groups. FSIS hosted a TTX “Operation
      Connect” that included participants from USDA, DHS, and FEMA. FSIS also
      participated in a TTX “Fate” cosponsored by DHS, the Environmental Protection
      Agency, USDA, and the Food and Drug Administration.
      FSIS followed up on issues identified during exercises to ensure it was prepared to
      respond to a significant incident. FSIS implemented these changes after exercises and
      significant incidents. FSIS provided copies of its Matrix, Training and Exercise section
      for the last six months. As an example from the matrix provided, FSIS completed its ESF
      11 exercise which tested the utility of the National Biosurveillance Information System to
      characterize situational awareness, guide response, share information in the event of a
      food incident and the coordination of response efforts during an incident involving the
      safety of the meat, poultry, and processed egg products.
Researchable Question 14:

To what extent did USDA support agencies identify new equipment or capabilities required
to prevent or respond to new or emerging threats and hazards, or to improve the ability to
address existing threats?

      Both FSIS and FNS officials stated that the agencies identified new equipment and
      capabilities using after-action assessments for an actual incident and readiness exercises
      conducted annually with FEMA and periodically with internal staff or other Federal
      agencies. For example, after Hurricane Katrina in 2005, FNS realized the need for GPS
      for the disaster team because many street signs and landmarks were down. FNS now
      maintains GPS for their teams during emergency support activations. As another
      example, FSIS provided a Significant Incident Response Directive which outlined
      procedures for responding to public health or food defense incidents. This directive is
      revised as needed to ensure FSIS’ response capabilities are current based upon lessons
      learned during internal and external exercises.




   Report 42099-4-HQ                                                                          11
